Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Managed Care Organization
        Nonreporting to the
   National Practitioner Data Bank

        A Signal for Broader Concern




                           MAY 2001
                         OEI-01-99-00690
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the health
and welfare of beneficiaries served by them. This statutory mission is carried out through a nationwide
program of audits, investigations, inspections, sanctions, and fraud alerts. The Inspector General
informs the Secretary of program and management problems and recommends legislative, regulatory,
and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Boston Office prepared this report under the direction of Mark R. Yessian, Ph.D., Regional
Inspector General, and Joyce M. Greenleaf, M.B.A., Assistant Regional Inspector General. Principal
OEI staff included:

REGION                                                HEADQUARTERS

Russell W. Hereford, Ph.D., Project Leader                         Alan Levine, Program Specialist
Norman J. Han, M.P.A., Program Analyst




       To obtain copies of this report, please call the Boston Regional Office at 617-565-1050.
         Reports are also available on the World Wide Web at our home page address:

                                       http://oig.hhs.gov/oei
                        EXECUTIVE                     SUMMARY

PURPOSE

         In this study we examine the extent to which managed care organizations are reporting adverse
         actions they take against health care practitioners to the National Practitioner Data Bank and
         the factors that influence their level of reporting.

DATA BANK AND MANAGED CARE ORGANIZATIONS

         The basic aim of the Data Bank is to help protect patients from poorly performing health care
         practitioners, mainly physicians and dentists. It contains information on practitioners who have
         had medical malpractice payments made on their behalf and/or adverse actions taken against
         them by a licensure board, professional society, or health care entity, such as a hospital or
         managed care organization. Health care organizations and licensure boards use this information
         to help them in their reviews of practitioners.

EXTENT OF REPORTING

Managed care organizations rarely submit adverse action reports to the Data
Bank.
      C    From September 1, 1990 to September 30, 1999, they reported only 715 adverse
           actions.
      C    Eighty-four percent of the managed care organizations (1,176 out of 1,401) never
           reported an adverse action.


EXPLANATIONS

       With close to 100 million individuals enrolled in these organizations and hundreds of thousands of

       physicians and dentists associated with them, fewer than 1,000 adverse action reports over nearly

       a decade serves for all practical purposes as “nonreporting.” Among the possible explanations

       we identified are: the level of reporting may be appropriate; managed care organizations may not

       be submitting reportable actions (perhaps because of some misunderstanding about their

       reporting responsibility); they may be responding to poorly performing practitioners in ways that

       do not require reporting to the Data Bank; and they may lack sufficient access to information to

       determine if an adverse action is warranted.


       While each of the above factors deserves attention as part of a fuller examination of factors

       influencing reporting to the Data Bank, two explanations stood out as especially convincing as we

       reviewed the information obtained from our interviews and the literature. 


Managed Care and the Data Bank                    i                                   OEI-01-99-00690
The two most likely explanations for the low level of reporting:

       Limited focus on clinical oversight

       Some managed care organizations devote considerable attention to the quality of care being
       provided to their enrollees. But we learned that in a health care marketplace that has been
       changing rapidly, many managed care organizations devote little attention to clinical oversight.
       The following factors help explain this limited focus:

            C      Heavy reliance on contracted panels of physicians rather than salaried physicians;

            C      Marketplace emphasis on price; and

            C      Consumer emphasis on access to physicians.


       Reliance on downstream entities--hospitals, physician practice groups, and
       State licensure boards--to conduct quality monitoring of practitioners

       Managed care officials emphasized to us that they rely upon these entities to protect patients from
       poor performers. They explained that these entities are more directly concerned with the delivery
       of care and therefore in a better position to take actions that would call for reporting. They
       added that as an ongoing check on the competency of practitioners, they rely heavily on the staff
       privileging functions of hospitals.

A BROADER CONCERN

Limitations of downstream entities that managed care organizations rely upon
       Managed care organizations’ considerable reliance on these entities accentuates the importance
       of their efforts to identify and take appropriate action against those few practitioners who pose
       harm to patients. In this study, we did not examine the performance of the downstream entities.
       But our prior studies and the health care literature offer considerable basis for questioning the
       patient protections they afford.

       Hospitals find it difficult to hold individual practitioners responsible for poor care.
       State licensure boards struggle with quality-of-care cases.
       Physician practice groups are similarly constrained.


ISSUES WARRANTING ATTENTION

       Recently, the Institute of Medicine has drawn national attention to the widespread phenomenon of
       medical errors. In its call for action, it emphasized that most errors are attributable to error-prone
       systems rather than individuals. But it also made clear that the public needs protection from
       “unsafe practitioners” who present danger to patients.


Managed Care and the Data Bank                      ii                                    OEI-01-99-00690
       Our observations about the limitations of the downstream entities leads us to target seven issues
       that call for greater attention if patients are to be adequately protected. These issues, listed
       below, can be addressed by individual researchers, research organizations, and component
       agencies with the U.S. Department of Health and Human Services (HHS).

            C      Dealing with unsafe practitioners as part of patient safety efforts.
            C      Patient protection role of managed care organizations.
            C      Patient protection role of physician practice groups.
            C      Effectiveness of hospital privileging practices.
            C      Performance of licensure boards in quality-of-care cases.
            C      Managed care organizations’ understanding of their reporting responsibilities.
            C      Managed care organizations’ compliance in reporting adverse actions.


COMMENTS
       Within the Department of Health and Human Services, we received comments from the Health
       Resources and Services Administration (HRSA), the Agency for Healthcare Research and
       Quality (AHRQ), and the Health Care Financing Administration (HCFA). We also solicited and
       received comments from the American Association of Health Plans (AAHP). Based on these
       comments, we made a number of changes that are reflected in this final report.

       The HHS agencies expressed support for the thrust of our report. We draw particular attention
       to HRSA’s readiness to join AHRQ in convening a conference, as we suggest, to address
       practitioner monitoring roles and responsibilities of physician practice groups and managed care
       organizations; to AHRQ’s commitment to consider our findings when implementing its patient
       safety agenda; and to HCFA’s intention to examine its bi-annual, on-site monitoring of
       Medicare+Choice organizations to see what changes might be warranted.

       In its written response to our draft report and in follow-up interactions, AAHP emphasized two
       points that we have addressed in this final report. One is that some managed care organizations
       devote much more attention to clinical oversight than we indicated in our draft report. We
       recognize that and have made that clear in this report. The second point is that to some degree
       the low level of managed care organization reporting to the Data Bank may be attributable to
       misunderstandings about their responsibility to report directly to the Data Bank rather than to
       State licensure boards. We find this explanation plausible and, accordingly, have urged HRSA to
       conduct outreach to managed care organizations to clear up any such misunderstandings.




Managed Care and the Data Bank                       iii                                  OEI-01-99-00690
                              TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


EXTENT OF REPORTING
   Managed care organizations rarely report adverse events to the Data Bank . . . . . . . . . . . . . 4

   But they frequently query the Data Bank . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


EXPLANATIONS
   Possible explanations for low level of reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

   Limited focus on clinical oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

   Dependence on downstream entities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


A BROADER CONCERN
    Questionable performance of downstream entities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

       Hospitals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

       Physician practice groups . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

       State licensure boards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


ISSUES WARRANTING ATTENTION
    Dealing with unsafe practitioners as part of patient safety efforts. . . . . . . . . . . . . . . . . . . . 10

    Patient protection role of MCOs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

    Patient protection role of physician practice groups . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

    Effectiveness of hospital privileging practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

    Performance of licensure boards in quality-of-care cases . . . . . . . . . . . . . . . . . . . . . . . . . . 12

    MCOs’ understanding of their reporting responsibility . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

    MCOs’ compliance in reporting adverse actions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


APPENDICES

        A. Comments on the draft report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


        B. OIG reports on quality assurance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


        C. Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31





Managed Care and the Data Bank                                                                                             OEI-01-99-00690
                                 INTRODUCTION


PURPOSE

       In this study we started out with the intention of: (1) determining the extent to which managed
       care organizations are reporting adverse actions they take against health care practitioners to the
       National Practitioner Data Bank and (2) identifying the factors that influence their level of
       reporting. As we became more aware of the explanations for a low level of reporting, we
       developed a broader concern that goes beyond our initial intent. That concern centers on the
       limitations of the entities that managed care organizations increasingly rely upon to protect patients
       from poorly performing practitioners.1 In the report, we elaborate on that concern and review
       ways in which it might be addressed.

BACKGROUND

       National Practitioner Data Bank

       In 1986, prompted by reports that physicians who lost their licenses to practice in one State were
       continuing their practice in another, Congress established the National Practitioner Data Bank
       (Data Bank). As set forth in the enabling legislation, the Data Bank serves as a national
       repository that State licensure boards and health care entities can draw upon to help them make
       more informed decisions concerning the licensing, credentialing, and, where necessary, the
       disciplining of physicians and other health care practitioners.2 Its fundamental aim is to help
       protect patients from poorly performing practitioners.

       Toward that end, Congress mandated that certain types of information be reported to the Data
       Bank. This information is the essential raw material of the Data Bank. It includes (1) medical
       malpractice payments made by insurers on behalf of physicians and dentists and (2) adverse
       actions taken by State medical or dental boards, professional societies, and health care
       organizations, such as hospitals and managed care organizations (MCOs). For these
       organizations, reportable actions encompass all professional review determinations that affect a
       physician’s or dentist’s clinical privileges for more than 30 days and voluntary surrenders or
       restrictions by physicians or dentists when they are under investigation for possible professional
       incompetence or improper conduct.

       Practitioner-specific information in the Data Bank is not available to the general public. But the
       statute stipulates that the information can be made available, upon request, to licensure boards
       and health care entities (including MCOs) that perform peer review functions. Further, it
       mandates that hospitals query the Data Bank as part of the application process for practitioners
       seeking clinical privileges and every 2 years for those having such privileges. The Data Bank,


Managed Care and the Data Bank                    1                                     OEI-01-99-00690
       administered under the direction of the Health Resources and Services Administration (HRSA) of
       the Department of Health and Human Services, has been operating since September 1990.

Prior Inquiry on Hospital Reporting

       In 1995, we examined the extent of hospital reporting to the Data Bank. We found that from
       September 1, 1990 to December 31, 1993, about 75 percent of hospitals in the United States
       had never reported an adverse action to the Data Bank. Our report also cited four issues that
       warranted further analysis to determine whether this level of reporting constituted a problem that
       must be addressed:

       C    There may be few practitioners with serious performance problems;
       C    Some hospitals may be responding to poorly performing practitioners in ways that do not
            require reporting to the Data Bank;
       C    Some hospitals may be de-emphasizing or even avoiding adverse actions against poorly
            performing physicians; and
       C    Some reportable hospital actions may not, in fact, be reported to the Data Bank.3

       In response to our recommendations, HRSA convened a national conference examining the
       minimal reporting and funded a study that examined hospital reporting in more depth.4
       But by the end of the decade, the situation was not much different: 60 percent of the hospitals still
       had not reported a single adverse event to the Data Bank.5

This Inquiry

       In this inquiry, conducted at the request of HRSA’s Division of Quality Assurance, we focus on

       MCO reporting of adverse actions to the Data Bank. Like hospitals, they must report to the

       Data Bank any actions they take against affiliated practitioners that affect their clinical privileges

       for more than 30 days. Their cooperation in carrying out this reporting requirement is important

       because MCOs have come to represent a significant potential source of information for the Data

       Bank. Enrollment in MCOs increased from 34 million in 1990 to 81 million in 1999. During the

       same period, Medicare enrollment in MCOs increased from 1.6 million to 6 million; Medicaid

       from 1.4 million to 11 million.6


       Our quantitative analysis in this report drew on data in the Data Bank for the period from

       September 1, 1990 to September 30, 1999.7 In assembling the data on MCO reporting to the

       Data Bank, we used an inclusive definition of MCOs, one that includes Health Maintenance

       Organizations and Preferred Provider Organizations.8


       Our qualitative analysis aimed to offer some understanding of factors influencing MCO reporting

       to the Data bank. We held telephone discussions with medical and/or executive leadership of six

       MCOs located in different parts of the country; in four of these instances, the MCO officials

       represented nationally based organizations (and therefore were relevant to hundreds of subsidiary

       health plans and many thousands of enrollees and affiliated practitioners). After the issuance of



Managed Care and the Data Bank                     2                                      OEI-01-99-00690
       our draft report, we held a focus group session with officials from the American Association of
       Health Plans and with medical directors and other officials from five additional MCOs.

       We held other discussions with two consumer advocates, two knowledgeable experts on the
       credentialing process, a health care attorney whose clients include MCOs, and two senior
       officials at a national managed care accrediting organization. We conducted a literature review,
       focusing on literature that helped to explain the role of MCOs in monitoring the performance of
       practitioners. And, finally, we drew on more than 15 years of our own work concerning quality
       assurance (see appendix B for a complete list of our reports on quality assurance).

       We begin our presentation by presenting data on MCO reporting to the Data Bank. We then
       turn to a discussion of possible explanations and to an elaboration of the broader concern that
       emerged from our review. We close by offering a number of issues calling for further analysis.

       We conducted this inspection in accordance with the Quality Standards for Inspections issued
       by the President’s Council on Integrity and Efficiency.




Managed Care and the Data Bank                   3                                    OEI-01-99-00690
                        EXTENT OF REPORTING

       For health care entities seeking to protect patients from poor care, adverse action reports serve
       as an important signal. They identify practitioners who have been disciplined because of peer
       concerns about their competence and/or conduct. These practitioners have been found
       responsible for actions that adversely affect or could adversely affect the health or welfare of
       patients. It is the responsibility of entities that hire or affiliate with physicians or dentists to
       consider carefully such reports and determine whether or under what conditions they should allow
       practitioners identified in these adverse action reports to treat patients. It is also the responsibility
       of these entities to regularly review the performance of their own practitioners and, when called
       for, to take adverse actions and report them to the Data Bank.

       As the Data Bank became institutionalized in the 1990s, health care organizations have come to
       rely upon it as a significant tool in their credentialing processes.9 Hospitals, which are mandated
       to query the Data Bank, have long since become accustomed to using it. Managed care
       organizations, even though not required to query the Data Bank, have regularly been doing so and
       now account for about one-half of all queries. From September 1, 1990 to December 31, 1999,
       they queried the Data Bank more than 8 million times.10 At an average cost of about $4 a query,
       this amounts to more than $30 million they spent during the 1990s to query the Data Bank.

       Yet, as the data below reveal, the MCOs provide little input to the Data bank. They do little to
       contribute to its usefulness as a credentialing resource either for themselves or for others who
       look to the Data Bank as a patient protection tool.

Managed care organizations rarely submit adverse action reports

to the Data Bank.


From September 1, 1990 to September 30,1999, they reported only 715 adverse

actions to the Data Bank.


       During a period when enrollment in managed care grew to account for over 100 million
       Americans, MCOs took reportable actions against fewer than 1,000 practitioners. The rate of
       reporting increased slightly over the past decade. In 1991, the Data bank received 32 reports;
       by 1998, the Data Bank received 116 reports.

Eighty-four percent of the managed care organizations currently registered with

the Data Bank (1,176 out of 1,401) never reported an adverse action to the Data

Bank.


       Among the 225 that reported an adverse action, almost half did so only once. At the other end,
       three reported more than 20 adverse actions; they are located in Arizona, Florida, and Ohio.11



Managed Care and the Data Bank                      4                                       OEI-01-99-00690
                                 EXPLANATIONS

       We recognize that no clear basis exists for how much MCO reporting to the Data Bank should
       occur. However, given that managed care has become the dominant form of health care, that
       close to 100 million individuals are enrolled in MCOs, and that hundreds of thousands of
       physicians and dentists are associated with them, less than 1,000 adverse action reports during
       the 1990s appears to be low. At the least, this low level of reporting calls for some explanation.

       Among the possible explanations we identified that deserve consideration are the following:

       • The level of reporting may be appropriate. It appears unlikely to us, but we must recognize

       this explanation as one possibility. Supporting it is the contention, as we will address shortly, that

       MCOs look to other bodies to take the kind of actions that are reportable to the Data Bank.


       • MCOs may not be submitting reportable actions. This possibility was underscored during

       our focus group session, when some MCO officials offered their understanding that direct MCO

       reporting to the Data Bank is not required. They indicated that they submit reports to the State

       medical board, not the Data Bank.12 In any case, we have no basis for knowing how often

       reportable actions are not reported.13


       • MCOs may be responding to poorly performing practitioners in ways that do not require

       reporting to the Data Bank. These might involve adverse actions that are below the threshold

       of a reportable action. They might also involve educational efforts that are not punitive in nature

       and that are in accord with quality improvement precepts that seek to establish safe environments

       for acknowledging errors and/or correcting deficiencies. From this vantage point, a report to the

       Data Bank can be seen as a policing action that undermines improvement efforts and that ought to

       be avoided except in the most extreme circumstances.


       • MCOs may lack sufficient access to information to determine if an adverse action is

       warranted against a practitioner. Because of concerns about legal liability and other reasons,

       hospitals, physician practice groups, and even MCOs themselves are reluctant to share

       information they have about the performance of individual practitioners and to divulge peer review

       information that has traditionally been regarded as confidential.14 Furthermore, the patient

       information that is needed to make such informed judgments about performance tends to be

       scattered among many settings, such as a physician’s office, a hospital, an ambulatory surgical

       center, and a laboratory.15 Thus, even those MCOs that may be inclined to carefully monitor the

       performance of individual practitioners are likely to have a difficult time doing so with a high level

       of confidence.





Managed Care and the Data Bank                     5                                     OEI-01-99-00690
       Each of these explanations deserves attention as part of any complete examination of the factors
       influencing MCO reporting to the Data Bank. But as we synthesized the information we obtained
       through our interviews and literature review, two explanations stood out as being especially
       convincing. They are concerned with basic characteristics of the health care marketplace as it has
       evolved in recent years. These explanations suggest that MCOs rarely consider adverse actions
       against practitioners, let alone take actions and then not report them to the Data Bank.

The two most likely explanations for low level of reporting


       Limited focus on clinical oversight


       Some MCOs devote considerable attention to the quality of care provided to their enrollees. 

       They issue practice guidelines, collect and review indicators of physician performance, monitor

       adverse events, and, as needed, conduct peer review.16 But the clear thrust of our interviews and

       review of literature is that evolving conditions in the health care marketplace have contributed to a

       more limited focus on clinical oversight by MCOs. To a considerable degree, as some managed

       care officials themselves emphasized to us, their organizations are functioning more as insurance

       companies than as clinical entities. They described their organizations more as administrative

       entities than as integrated health care delivery systems that coordinate, monitor, and assure the

       quality of care that individual practitioners provide. 


       Many physicians, it seems, share this assessment. One MCO medical director told us about

       focus group sessions that her organization had conducted with physicians in its network. 

       According to the focus groups, only a few physicians considered the MCO as a clinical

       organization. The majority viewed it as nothing more than a “bill paying organization.”


       Below, we identify three characteristics of the current managed care environment that buttress the

       observation that MCOs tend to play a limited role in conducting clinical oversight of their

       practitioners:


       Heavy reliance on contracted panels of physicians rather than salaried physicians. The

       managed care organizations of today rarely function as staff model health maintenance

       organizations with salaried physicians.17 Instead, they tend to be loose networks that contract

       with individual physicians. These physicians, in turn, typically are aligned with multiple MCOs.18

       Managed care officials reported that while both staff and contracted physicians go through a

       rigorous process of credentialing, the ongoing quality review of contracted physicians is distinctly

       less than has been the case for staff physicians.


       Marketplace emphasis on price. In recent years much national attention has focused on health

       care quality. But the clear experience of the health care marketplace is that purchasers and

       consumers have emphasized price in selecting health plans. This has been well documented in

       recent studies. It means that MCOs often have little incentive to devote many resources to

       quality assessment and improvement.19 One managed care 


Managed Care and the Data Bank                    6                                     OEI-01-99-00690
       executive, whose organization had taken a number of important quality initiatives, including some

       aimed at poorly performing practitioners, expressed his frustration over how minimally these

       initiatives were rewarded by the marketplace.


       Consumer emphasis on access to physicians. Consumers have sent a strong and clear

       message to MCOs and to employers that they want wide access to individual physicians.20

       Many States have passed laws facilitating such choice and most MCOs have developed product

       lines offering consumers less restrictive health plan arrangements that afford them extensive choice

       of physicians. In this environment, MCOs find that any removal of individual physicians from their

       panels, even for quality reasons, can be unpopular with enrollees because it diminishes choice. In

       the current marketplace, MCO officials tell us that assuring widespread patient access to

       physicians has much more drawing power in attracting or retaining enrollees than does rigorous

       quality assurance that, to some extent, could restrict access.


       Reliance on downstream entities--hospitals, physician practice groups, and

       State licensure boards--to conduct quality monitoring of practitioners


       Given their own limited role in protecting patients from poorly performing practitioners, MCO
       officials emphasized to us that they rely on the aforementioned entities to perform that critical
       patient protection function. They explained that hospitals, physician practice groups, and
       licensure boards are more directly concerned with the delivery of care (compared with the
       upstream MCOs) and are therefore in a better position to identify questionable performers and to
       take actions that could call for reporting to the Data Bank.21

       As an ongoing check on the competency of practitioners, MCO executives told us that they rely
       heavily on the privileging functions of hospitals.22 This is especially true for physician specialists.
       Some MCOs, in fact, use their contracts as ways of fostering such links--for example, requiring
       practitioners to notify the MCO of any changes in their hospital privileging status or requiring a
       hospital to notify the MCO of any change in such status.




Managed Care and the Data Bank                     7                                      OEI-01-99-00690
                       A BROADER                       CONCERN

Limitations of the downstream entities that MCOs rely upon


       The heavy reliance that MCOs place on hospitals, physician practice groups, and State licensure
       boards accentuates the importance of these bodies’ efforts to identify and deal with poorly
       performing practitioners. For patients, these bodies serve as a vital front line of protection. In
       this study, we did not examine the performance of these downstream entities, but we know from
       our prior studies and from the health care literature that there is ample basis for questioning how
       well they protect patients from those few practitioners who can be dangerous.

       Hospitals find it difficult to hold individual practitioners responsible for poor

       care and to undertake system reforms that foster patient safety.


       MCO representatives told us that they rely on hospital privileging and quality review actions to
       make certain that practitioners provide safe care of high quality. But hospitals are hard-pressed
       to provide these expected safeguards. We have already noted in this report that 60 percent of
       the hospitals in the U.S. have never reported an adverse action to the Data Bank. Our prior
       work has shown that hospital privileging actions can be cursory and that neither the process of
       accrediting nor certifying hospitals is likely to detect substandard patterns of care or individual
       practitioners with questionable skills.23 And the extensive literature on medical errors documents
       many of the factors that inhibit hospitals and other health care providers from taking preventive
       actions to reduce the likelihood of harm caused by the treatment process.

       These shortcomings in hospital quality review are especially alarming given that hospitals are
       places where inappropriate care can lead to unnecessary harm. This evidence is documented in
       the professional literature and is frequently described in the media.24,25

       Physician practice groups appear to be similarly constrained.


       Thousand of practice groups of various kinds exist across the country. The collaboration and
       peer review that exist within them certainly serve as an important ongoing force for high quality
       health care. Yet, we know little about how and how rigorously these physician practice groups
       protect the public from those few poorly performing practitioners who may pose a danger.26

        There is, we believe, reason to have some concern on this matter. From September 1, 1990 to
       September 30, 1999, group practices reported only 60 actions to the Data Bank. We know
       from our reviews of State licensure boards and from regular discussions with licensure board
       officials that these groups rarely report one of their colleagues to a licensure




Managed Care and the Data Bank                    8                                     OEI-01-99-00690
       board for investigation.27 In some cases, groups that find a colleague to be practicing

       substandard care may merely let that colleague go rather than report him or her to the licensure

       board. That action helps protect patients relying on the particular physician group, but it leaves

       the physician free to practice in another setting and perhaps expose patients to harm elsewhere. 

       Indeed, if the group practice took no official action against the physician, the next organization

       that credentials the physician will likely remain uninformed about the prior performance problems.


State licensure boards struggle with quality-of-care cases.


       Quality-of-care cases are complex, time-consuming, and costly to pursue. In our studies over the
       years, we have given particular attention to State medical licensure boards and to the significant
       constraints they face in seeking to ensure the public that licensees meet minimum standards of
       care. These constraints include significant resource shortages, minimal referrals from health care
       providers (such as hospitals and MCOs), limited authority to collect evidence that can reveal a
       pattern of poor performance, and a fragmented investigatory process.28 In recent years, these
       boards appear to have become more attentive to quality-of-care cases and to have strengthened
       their capacity to address such cases. But numerous inquiries indicate that they still function with
       significant limitations.29




Managed Care and the Data Bank                    9                                     OEI-01-99-00690
   ISSUES                        WARRANTING                        ATTENTION

       Recently, the Institute of Medicine (IOM) has drawn national attention to the widespread
       phenomenon of medical errors and to the kind of measures that can be taken to increase patient
       safety.30 In its call for action, the IOM emphasized that most errors are attributable to error-
       prone systems rather than individuals. Accordingly, it urged reform efforts that focus on a
       redesign of such systems. But the IOM also made clear that as part of an overall effort to
       promote patient safety, it is important to give attention to the existence of “unsafe practitioners”
       who present danger to patients. It recognized that some individuals may be “incompetent,
       impaired, uncaring, or may even have criminal intent.”31 “The public,” it added, “needs defensible
       assurance that such individuals will be dealt with effectively and prevented from harming
       patients.”32 An important part of system reform, it made clear, is to ensure that adequate systems
       exist to identify and deal with poorly performing practitioners.

       Our observations about the limitations of downstream entities that MCOs rely upon to foster
       patient safety suggest that greater attention needs to be paid to providing the assurance that the
       IOM calls for. Below we identify seven key issues that we believe warrant greater attention if
       patients are to be provided improved protection against “unsafe practitioners.” These are issues
       that can be addressed by individual researchers, research organizations such as the Institute of
       Medicine, and by component agencies of the Department of Health and Human Services--most
       especially the Agency for Healthcare Research and Quality (AHRQ), the Health Resources and
       Services Administration (HRSA), and the Health Care Financing Administration (HCFA).

Dealing with unsafe practitioners as part of patient safety efforts

       How can this best be accomplished? What kind of initiatives appear to be most promising and
       why? The IOM report suggests that these are important questions worth addressing. Within
       HHS, AHRQ serves as a focal point for promoting patient safety. Through its research,
       demonstration, and public education efforts, it could play a valuable role in helping MCOs,
       hospitals, physician practice groups, and other health care providers determine how identifying
       and responding to poor performers could be integrated into system reform efforts intended to
       promote patient safety. In this regard, AHRQ could devote particular attention to the kind of
       educational and remedial efforts that could be directed to practitioners who have been
       experiencing performance problems. Given that an implicit aim of the Data Bank is to help
       protect the public from harm caused by such practitioners, HRSA’s Division of Quality
       Assurance, which operates the Data Bank, could play a helpful collaborative role in determining
       how best to deal with unsafe practitioners.33

Patient protection role of MCOs

       Our limited inquiry suggests that the primary patient protection role carried out directly by MCOs
       rests in their practitioner credentialing efforts. A fuller inquiry could examine the

Managed Care and the Data Bank                   10                                     OEI-01-99-00690
       degree to which that is, in fact, the case and the level of protections actually afforded by these
       credentialing efforts. Are some more effective than others? If so, why? For the Medicare and
       Medicaid programs, it is especially important for HCFA and State Medicaid agencies, which
       serve as purchasers of care on behalf of their beneficiaries, to examine the kind of practitioner
       monitoring actions they expect of MCOs and how fully they hold them responsible for those
       actions.34 To the extent that MCOs are not held responsible for protecting patients from unsafe
       practitioners, then increased scrutiny must be directed to the downstream entities seen to have
       that responsibility.

Patient protection role of physician practice groups

       Given the dependence that MCO representatives say they place on the quality monitoring efforts
       of physician practice groups, it becomes increasingly important to understand the extent and
       nature of these efforts. With so many of these groups and with so many different arrangements
       under which they function, this can be a difficult undertaking. But it appears to us that it is one
       that warrants attention. How can we explain that in the 1990s these groups reported only about
       60 adverse actions to the Data Bank, or that they rarely make referrals to State medical boards?
       How do they deal with their own colleagues who are not performing adequately? Are there
       promising quality monitoring approaches being undertaken by some of these groups? Better
       understanding of these questions can be helpful in improving the protections afforded in
       nonhospital settings. It would be helpful for some HHS component to convene a conference that
       addresses the practitioner monitoring roles and responsibilities of physician practice groups and
       MCOs.

Effectiveness of hospital privileging practices

       In our prior review addressing the external review of hospital quality, we recommended that
       HCFA give greater attention to the oversight of hospital privileging practices. This study adds a
       measure of urgency to that recommendation because senior MCO officials emphasized to us that
       they rely heavily on hospital privileging practices as a quality assurance check. This privileging
       function is a vital patient safeguard, one that goes beyond the credentialing function and one that
       can continually assess a practitioner’s competency. It warrants greater scrutiny. We expect to
       look more fully at this issue as we continue to monitor the adequacy of the external review of
       hospital quality.

Performance of licensure boards in quality-of-care cases

       These boards provide a vital front line of protection for patients.35 In its report on medical errors,
       the IOM recognized the key role that they play in fostering patient safety and indicated that
       “existing licensing and accreditation should be strengthened to ensure that all health care
       professionals are assessed periodically on both skills and knowledge for practice.36 Within
       HRSA, the Division of Medicine in the Bureau of Health Professions has a long association with
       State licensure boards. It is well-positioned to work with these boards (and their associations) to
       find ways in which they can improve their capacity to identify and act on quality-of-care cases


Managed Care and the Data Bank                    11                                      OEI-01-99-00690
       and be held appropriately accountable for their performance in this area.37 This is an area that the
       Office of Inspector General reviewed extensively a number of years ago and intends to revisit
       soon.38

Managed care organizations’ understanding of their reporting

responsibility


       The fact that at least some MCOs do not recognize that they are expected to submit adverse

       action reports directly to the Data Bank, rather than through a State medical board, is an

       important insight that emerges from our inquiry. We do not know the extent of this

       misunderstanding, but it is possible that it could explain to some degree the small number of MCO

       adverse action reports to the Data Bank. Accordingly, to clear up any possible

       misunderstanding, we urge HRSA to conduct outreach to inform MCOs of their reporting

       responsibilities.


Managed care organizations’ compliance in reporting adverse

actions.


       Finally, it is important to know more about compliance efforts being taken to ensure that MCOs
       and other entities are, in fact, reporting adverse actions to the Data Bank. We urge HRSA to
       follow through with the request for proposal it is considering in this regard. We also suggest that
       further attention be given to how, and how thoroughly, accrediting bodies ensure that reporting
       responsibilities are carried out.




Managed Care and the Data Bank                    12                                    OEI-01-99-00690
                            COMMENTS ON THE
                              DRAFT REPORT

       Within the Department of Health and Human Services, we received comments on the draft report
       from the Health Resources and Services Administration, the Agency for Healthcare Research and
       Quality, and the Health Care Financing Administration. In addition, we received comments from
       the American Association of Health Plans. Based on these comments, we made some changes
       that are reflected in this final report. Below, we summarize the comments of the respondents and
       offer our responses in italics. Appendix A contains the full text of each set of comments

Health Resources and Services and Administration

       HRSA expressed its readiness to work with other HHS components, particularly AHRQ, to
       sponsor a conference, as we suggest, that would address practitioner monitoring roles and
       responsibilities of physician practice groups and MCOs. The agency underscored the importance
       of MCOs developing accountability systems directed to unsafe practitioners. In reviewing our
       possible explanations for the low level of MCO reporting to the Data Bank, it suggested that we
       could provide greater emphasis on our explanation that MCOs “may be responding to poorly
       performing practitioners in ways that do not require reporting to the Data Bank.” It based that
       statement on comments it has heard that when MCOs wish to get rid of poorly performing
       physicians, they frequently “terminate without cause,” and thereby free themselves of any
       reporting responsibility. In addition, it suggested two technical changes that we reflected in the
       final report.

       We urge HRSA and AHRQ to follow through with the proposed conference; it could
       contribute significantly to understandings about the clinical oversight being undertaken in
       managed care settings. We understand HRSA’s concern about the possibility of MCOs
       evading reporting responsibilities by avoiding the peer review process and terminating
       physicians without cause. But we have no basis for knowing if, in fact, that is happening,
       and, if so, how often. However, on the basis of the focus group discussion we held with a
       number of MCO representatives after the draft report was issued, we did become aware
       that misunderstandings about reporting responsibilities may be contributing to some
       degree to the low level of MCO reporting. Accordingly, in the final report, we added a
       suggestion that HRSA conduct outreach to help managed care organizations understand
       their responsibility for submitting adverse action reports to the Data Bank.

Agency for Healthcare Research and Quality

       As with the other Departmental components, we had considerable interaction with AHRQ on our
       working draft report and incorporated a number of their suggestions in the draft report. In its
       comments on the draft report, the agency agreed that research is needed along the lines we
       suggested. It indicated that it would consider the report’s findings when implementing its patient
       safety agenda during the fiscal year.

Managed Care and the Data Bank                   13                                    OEI-01-99-00690
       We look forward to working with AHRQ to assist in this process and underscore the
       importance of incorporating within patient safety efforts a component that helps identify
       effective ways of dealing with substandard practitioners.

Health Care Financing Administration

       HCFA, after summarizing relevant laws that concern MCO reporting, emphasized that
       Medicare+Choice organizations with which it contracts are expected to adhere to all applicable
       non-Medicare laws. It indicated that during its biannual on-site monitoring visits of these
       organizations, it reviews credentialing files. It added that it will consider whether any changes or
       additions to its regulations are warranted. This comment addresses our suggestion that HCFA
       examine the obligations that it and the States impose on MCOs that enroll Medicare or Medicaid
       beneficiaries.

       HCFA noted that we made substantive changes responsive to its comments on our working draft
       report. But it noted that we did not provide documentation on our assertions that staff model
       HMOs have better control over quality than MCOs that contract with physicians and that MCOs
       have little incentive to devote many resources to quality assurance.

       On the first point above, our observation was that MCOs’ quality review of contracted
       physicians was less than that of staff physicians. It is based on our interviews and reflects
       the lesser leverage that MCOs tend to have over contracted physicians who often are
       associated with multiple MCOs. On the second point, we omitted the reference about
       incentives, but continue to stress the marketplace emphasis on price rather than quality.

American Association of Health Plans

       A central point of AAHP’s comments and our subsequent focus group meeting with AAHP
       officials and medical directors convened by them was that managed care organizations play a
       more active role in addressing quality of care issues than we indicated in our draft report.

       As a result of that meeting and further conversations with MCO officials, our discussion in
       the final report is more nuanced on MCO’s quality assurance role. We recognize the
       significant attention they give to practitioner credentialing and acknowledge that some
       MCOs give considerable attention to the quality of care provided to their enrollees. But
       drawing on the bulk of our interviews and the health care literature, we still conclude that
       marketplace conditions contribute to what in the main is a limited MCO focus on clinical
       oversight.

       Another important point that emerged as a result of our interactions with AAHP is that some
       MCOs have misunderstood their responsibility to report adverse actions directly to the Data
       Bank rather than to State licensure boards. We found this explanation for the low level of
       reporting to be important enough to integrate into our possible explanations of the low
       level of reporting and to urge HRSA to conduct outreach to MCOs to clear up any such
       misunderstandings. It is possible that such outreach could result in a significant increase in
       the number of MCO reports submitted to the Data Bank.

Managed Care and the Data Bank                    14                                    OEI-01-99-00690
                                                                                                        APPENDIX A



                                 Comments on the Draft Report


                                                                                                                        Page


Health Resources and Services Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


Agency for Healthcare Research and Quality . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


Health Care Financing Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


American Association of Health Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23





Managed Care and the Data Bank                               15                                               OEI-01-99-00690
                                      APPENDIX A




Managed Care and the Data Bank   16      OEI-01-99-00690
                                      APPENDIX A




Managed Care and the Data Bank   17      OEI-01-99-00690
                                      APPENDIX A




Managed Care and the Data Bank   18      OEI-01-99-00690
                                      APPENDIX A




Managed Care and the Data Bank   19      OEI-01-99-00690
                                      APPENDIX A




Managed Care and the Data Bank   20      OEI-01-99-00690
                                      APPENDIX A




Managed Care and the Data Bank   21      OEI-01-99-00690
                                      APPENDIX A




Managed Care and the Data Bank   22      OEI-01-99-00690
                                      APPENDIX A




Managed Care and the Data Bank   23      OEI-01-99-00690
                                      APPENDIX A




Managed Care and the Data Bank   24      OEI-01-99-00690
                                      APPENDIX A




Managed Care and the Data Bank   25      OEI-01-99-00690
                                      APPENDIX A




Managed Care and the Data Bank   26      OEI-01-99-00690
                                                                           APPENDIX B




                            OIG Reports on Quality Assurance


State Licensure Boards

Office of Inspector General, Medical Licensure and Discipline: An Overview, P-01-86-
00064, June 1986.

Office of Inspector General, State Licensure and Discipline of Dentists, OAI-01-88-00580,
August 1988.

Office of Inspector General, State Licensure and Discipline of Podiatrists, OAI-01-88-00583,
December 1988.

Office of Inspector General, State Licensure and Discipline of Chiropractors, OAI-01-88-
00581, January 1989.

Office of Inspector General, State Licensure and Discipline of Optometrists, OAI-01-88-
00582, February 1989.

Office of Inspector General, State Discipline of Pharmacists, OAI-01-90-89020, July 1990.

Office of Inspector General, State Medical Boards and Medical Discipline, OEI-01-89-
00560, August 1990.

Office of Inspector General, State Medical Boards and Medical Discipline: A State by State
Review, OEI-01-89-00561, August 1990.

Office of Inspector General, Performance Indicators, Annual Reports, and State Medical
Discipline: A State-by-State Review, OEI-01-89-00563, July 1991.

Office of Inspector General, Quality Assurance Activities of Medical Licensure Authorities in
the United States and Canada, OEI-01-89-00562, February 1992.

Office of Inspector General, Federal Initiatives to Improve State Medical Boards’
Performance, OEI-01-93-00020, February 1993.




Managed Care and the Data Bank              27                                 OEI-01-99-00690
                                                                           APPENDIX B


Office of Inspector General, State Medical Boards and Quality-of-Care Cases: Promising
Approaches, OEI-01-92-00050, February 1993.

Office of Inspector General, The Licensure of Out-of-State Dentists, OEI-01-92-00820,
August 1993.

Office of Inspector General, State Dental Board and Dental Discipline, OEI-01-92-00821,
August 1993.

Providers

Office of Inspector General, The External Review of Hospital Quality: A Call for Greater
Accountability, OEI-01-97-00050, July 1999.

Office of Inspector General, The External Review of Hospital Quality: The Role of
Accreditation, OEI-01-97-00051, July 1999.

Office of Inspector General, The External Review of Hospital Quality: The Role of Medicare
Certification, OEI-01-97-00052, July 1999.

Office of Inspector General, The External Role of Hospital Quality: Holding the Reviewers
Accountable, OEI-01-97-00053, July 1999.

Office of Inspector General, The External Quality Review of Psychiatric Hospitals, OEI-01-
99-00160, May 2000.

Office of Inspector General, External Quality Review of Dialysis Facilities: A Call for Greater
Accountability, OEI-01-99-00050, June 2000.

Office of Inspector General, External Quality Review of Dialysis Facilities: Two Promising
Approaches, OEI-01-99-00051, June 2000.

Outpatient Surgery


Office of Inspector General, Outpatient Surgery: Medical Necessity and Quality of Care, OEI-
07-89-00100, March 1991.

Office of Inspector General, Oversight of Outpatient Surgery, OEI-07-91-00690, May 1992.




Managed Care and the Data Bank              28                                  OEI-01-99-00690
                                                                          APPENDIX B


Office of Inspector General, Impact of Regulating Outpatient Surgery, OEI-07-91-00691,
May 1992.

Office of Inspector General, Physician Office Surgery, OEI-07-91-00680, June 1993.

National Practitioner Data Bank


Office of Inspector General, National Practitioner Data Bank Malpractice Reporting
Requirements, OEI-01-90-00521, April 1992.

Office of Inspector General, National Practitioner Data Bank: Profile of Matches, OEI-01-
90-00522, April 1992.

Office of Inspector General, National Practitioner Data Bank: Usefulness and Impact of
Reports to Hospitals, OEI-01-90-00520, February 1993.

Office of Inspector General, National Practitioner Data Bank: Usefulness and Impact of
Reports to State Licensing Boards, OEI-01-90-00523, March 1993.

Office of Inspector General, National Practitioner Data Bank: Profile of Matches Update,
OEI-01-94-00031, August 1994.

Office of Inspector General, Hospital Reporting to the National Practitioner Data Bank, OEI-
01-94-00050, February 1995.

Office of Inspector General, National Practitioner Data Bank Reports to Hospitals: Their
Usefulness and Impact, OEI-01-94-00030, April 1995.

Office of Inspector General, National Practitioner Data Bank Reports to Managed Care
Organizations: Their Usefulness and Impact, OEI-01-94-00032, April 1995.

Peer Review Organizations


Office of Inspector General, The Utilization and Quality Control Peer Review Organizations
(PROs): Quality Review Activities, OAI-01-88-00570, August 1988.

Office of Inspector General, The Utilization and Quality Control Peer Review Organizations
(PROs): Program Sanction Activities, OAI-01-88-00571, August 1988.




Managed Care and the Data Bank             29                                 OEI-01-99-00690
                                                                         APPENDIX B


Office of Inspector General, The Utilization and Quality Control Peer Review Organizations
(PROs): An Exploration of Program Effectiveness, OAI-01-00572, January 1989.

Office of Inspector General, Educating Physicians Responsible for Poor Medical Care: A
Review of the Peer Review Organizations’ Efforts, OEI-89-00020, February 1992.

Office of Inspector General, Peer Review Organizations and State Medical Boards: A Vital
Link, OEI-01-92-00530, April 1993.

Office of Inspector General, The Sanction Referral Authority of Peer Review Organizations,
OEI-01-92-00250, March 1993.

Office of Inspector General, The Beneficiary Complaint Process of the Medicare Peer Review
Organizations, OEI-01-93-00250, November 1995.

Office of Inspector General, Medicare Peer Review Organizations’ Role in Identifying and
Responding to Poor Performers, OEI-01-93-00251, December 1995.

Office of Inspector General, Monitoring and Evaluating the Healthcare Quality Improvement
Program, OEI-01-98-0040, August, 1998.

External Quality Review Organizations


Office of Inspector General, Lessons Learned from Medicaid’s Use of External Quality Review
Organizations, OEI-01-98-00210, August 1998.

Managed Care


Office of Inspector General, Medicaid Managed Care: The Use of Surveys as a Beneficiary
Protection Tool, OEI-01-95-00280, May 1997.

Office of Inspector General, Medicare’s Oversight of Managed Care: Monitoring Plan
Performance, OEI-01-96-00190, April 1998.




Managed Care and the Data Bank             30                                 OEI-01-99-00690
                                                                                 APPENDIX C



                                          Endnotes


1. We use the term “poorly performing practitioners” to refer to those whose knowledge and/or skills
are below professionally accepted standards in one or more areas of their practice. We recognize that
there are complex factors that can be responsible, and that the condition can be temporary in nature.
Whatever the causes or duration, however, patients face unnecessary risk when practitioners are
performing below acceptable standards. Our intent in this report is not to urge that practitioners be
punished for their poor performance, but to encourage adequate attention to protecting patients from
harm. Interventions directed to these practitioners could well be educational or remedial in nature as
long as adequate attention is given to the safety of patients during the educational/remedial process.

2. The Data Bank refers to other health care professionals as licensed health care practitioners. It
defines them as individuals (other than physicians) who are licensed or otherwise authorized by the
State to provide health care. According to the Data Bank, medical malpractice payments comprised
75 percent of reports submitted to the Data Bank from 1990 through 1999,.

3. Department of Health and Human Services, Office of Inspector, General Hospital Reporting to the
National Practitioner Data Bank, OEI-01-94-00050, February, 1995

4. Laura-Mae Baldwin et al., “Hospital Peer Review and the National Practitioner Data Bank: Clinical
Privileges Report,” Journal of the American Medical Association 282 (July 28, 1999): 4: 349-355.

5. Department of Health and Human Services, Health Resources and Services Administration, 1999
National Practitioner Data Bank Annual Report, May 2000, p.22.

6. Including preferred provider organization with 80 to 100 million enrollees, over 150 million
Americans are enrolled in some form of managed care plan. The enrollment data for Medicaid
managed care are from 1991 through 1999. Interstudy Publications Press Release for HMO Industry
Report 10.1, April 26, 2000 [http://www.hmodata.com/, accessed July, 2000.]

7. In our analysis of reporting levels of clinical privileging actions, we used the year the action was
originally reported to the Data Bank. The variable is called ORIGYEAR in the Reports Research Files.
We did not analyze data from the last 3 months of 1999. Because HRSA is reclassifying action codes
for its web-based reporting system, the data were inconsistent with data from the previous 9 years. We
excluded the last 3 months of 1999 because of these inconsistencies.

8. The Data Bank originally used variables named HMO and PPO. But because many different forms
of managed care plans started to emerge, the Data Bank has gone to an all-encompassing variable
called MCO to designate all of these different types of managed care plans.

9. In a report summarizing the deliberations of a meeting of the Federal Credentialing Program, the
following definition of credentialing was offered: “Credentialing is employed to ensure the delivery of
high quality health care by appropriately qualified professionals. Credentialing includes the verification

Managed Care and the Data Bank                  31                                    OEI-01-99-00690
                                                                                     APPENDIX C

of education and training; the currency of state or jurisdictional licenses; registrations or certifications;

proper authorization to dispense drugs; and the status of hospital privileges. It also includes a review

for malpractice claims, criminal history and past adverse actions against a license.” See Health

Resources and Services Administration, Center for Health Professions, Proceedings of

Demonstration Project Working Meeting of the Federal Credentialing Program, Albuquerque,

New Mexico, July 11-14, 1999, p.8.


10. Two factors help explain the large numbers of MCO queries. One is that accreditation standards
set forth by the National Commission for Quality Assurance call for MCOs to query the Data Bank
when credentialing and recredentialing physicians in their networks. The other is that many physicians
are associated with multiple MCOs and thus are subjected to multiple queries. For example, a
physician affiliated with five MCOs could well be the focus of ten or more queries every 2 years as a
routine part of the credentialing and recredentialing process.

11. It is important to note that these numbers are for individual MCOs, whether or not they are part of
a larger corporation. In the Data Bank’s registration system, each MCO is listed separately, whether
or not it is part of a larger corporation including other MCOs.

12. Before the Data Bank allowed for electronic reporting of adverse events, MCOs, hospitals, and
other entities that provided adverse event reports to the Data Bank did so through the State licensure
board. They sent a paper copy of the report to the licensure board, which then sent it on to the Data
Bank. This earlier practice may contribute to an explanation for why some MCOs (and perhaps
hospitals and other entities) do not assume they are responsible for directly reporting to the Data Bank.

13. We do not know how fully, if at all, the accrediting bodies conduct compliance checks as part of
their accreditation process. We do know that the Department of Health and Human Services conducts
little such compliance checking of its own. However, within HHS, the Health Resources and Services
Administration is planning to issue a request for proposals that would develop a methodology for
reviewing compliance and conducting tests of the methodology in selected sites.

14. Hospitals, as well as physician practice groups, are not inclined to share peer review information
with MCOs. While various factors may help explain this lack of feedback, two appear most
fundamental. One is that peer review has traditionally been regarded as confidential information. Many
fear that opening it up will undermine the sense of collegiality upon which it is built and therefore
discourage peer review. The other factor is concern for legal liability--that whatever legal liability
protections are afforded in the statute, the entities and individuals engaged in peer review could be
subjecting themselves to costly and lengthy lawsuits.

15. Some MCOs have developed databases that incorporate information from patient encounters and
from patient satisfaction surveys, and have used this information as a monitoring tool, sometimes
disclosing it to payers and the public. But the message we received from our interviews was that even
in these cases, the data collection is seldom regarded as a tool for identifying and taking action against
practitioners who provide substandard care.


Managed Care and the Data Bank                    32                                      OEI-01-99-00690
                                                                                 APPENDIX C

16. Some MCO officials explained these processes to us in considerable detail.

17. For further discussion on the changing managed care marketplace, see Jon Gabel, “Ten Ways
HMOs have Changed During the 1990s,” Health Affairs 16 (May/June 1997) 3: 134-145. See also
Bruce E. Landon et al., “A Conceptual Model of the Effects on the Quality of Medical Care,” Journal
of the American Medical Association 279 (May 6, 1998) 17: 1377-1382, and James C. Robinson
and Lawrence P. Casalino, “Vertical Integration and Organizational Networks in Health Care,” Health
Affairs 15 (Spring 1996) 1: 7-22.

18. This is especially true for Independent Practice Associations (IPAs), which have become the
dominant form of physician practice group. Some MCOs, especially those in California, have been
looking to IPAs to conduct utilization review, credential physicians, and undertake other quality
improvement initiatives. For further discussion on IPAs, see Thomas Bodenheimer, “The American
Health Care System: Physicians and the Changing Marketplace,” The New England Journal of
Medicine 340 (February 18, 1999) 7: 584-588; Kevin Grumbach et al., “Independent Practice
Association Physician Groups in California,” Health Affairs 17 (May/June 1998) 3: 227-237; and
James C. Robinson, “Blended Payment Methods in Physician Organizations Under Managed Care,”
Journal of the American Medical Association 282 (October 6, 1999) 13: 1258-1263.

19. For further discussion on the preference for price over quality, see Robert H. Brook, “Managed
Care is not the Problem, Quality is,” Journal of the American Medical Association 278 (November
19, 1997): 1612-1614; M.E. Chernew and D.P. Scanlon, “Health Plan Report Cards and Insurance
Choice, Inquiry 35 (1998) 1: 9-22; Commonwealth Fund, “Employers Underutilize HEDIS Data,
Commonwealth Fund Quarterly (Summer 1998): 1-2; Judith H. Hibbard and Jacquelyn J. Jewitt,
“Will Quality Report Cards Help Consumers?” Health Affairs 16 (May/June 1997) 3: 218-228;
Martin Marshall et al., “The Public Release of Public Data: What do we Expect to Gain? A Review of
the Evidence, Journal of the American Medical Association 283 (April 12, 2000) 14: 1866-1874;
J. Meyer et al., “Theory and Practice of Value - Based Purchasing: Lessons from the Pioneers,”
(Rockville, MD.: Agency for Health Care Policy and Research, 1997); Eric C. Schneider and Arnold
M. Epstein, “Use of Performance Reports: A Survey of Patients Undergoing Cardiac Surgery,”
Journal of the American Medical Association 279 (May 27, 1998) 20: 1638-1642; Anne Tumison
et al., “Choosing a Health Plan: What Information will Consumers Use?” 16 (May/June) 3: 229-238;
Commonwealth Fund, “Employers Underutilize HEDIS Data,” Commonwealth Fund Quarterly
(Summer 1998): 1-2; and R.A. Berenson, “Beyond Competition,” Health Affairs (March/April):171-
180.

20. For further discussion on the preference for access to physicians, see Catherine G. McLaughlin
and Paul B. Ginsburg, “Competition, Quality of Care, and the Role of the Consumer,” The Milbank
Quarterly 76 (November 4, 1998) 4: 737-743; J.D. Reshovsky et al., “Does Type of Health
Insurance affect Health Care Use and Assessment of Care among the Privately Insured?,” Health
Services Research 35 (April 2000); and Ralph Ullman et al., “Satisfaction and Choice: A View from
the Plans,” Health Affairs 16 (May/June 1997) 3: 209-217.



Managed Care and the Data Bank                33                                    OEI-01-99-00690
                                                                                    APPENDIX C

21. The reference here is to all boards responsible for the licensure and discipline of health
professionals, but in particular to medical licensure boards. Accordingly, our attention in this report
focuses on these State medical boards.

22. Privileging, in contrast to credentialing, focuses on the substance of a practitioner’s allowable
scope of practice for an organization. Here is the definition of privileging provided in the Federal
Credentialing Program report mentioned earlier: “Based upon the data collected in the credentialing
process, a hospital, through its medical staff section, or health plan through its membership process
determines the appropriate extent to professional practice to be granted to an individual health care
provider.” See Proceedings of Demonstration Project, p.9.

23. The following elaboration is from our report, “The External Review of Hospital Quality: The
Role of Accreditation,” OEI-01-97-00051, July 1999, pp. 16-17:

         “A standard part of an accreditation survey is a review of hospitals’ own processes in ensuring
         competence of their practitioners. But that review of credentialing and privileging offers, at
         best, a preliminary and superficial assessment. It generally last 45 to 60 minutes, during which
         the surveyor both interviews the medical staff leadership and reviews files (in some cases, the
         hospital’s staff also reviews files).

         While the hospitals generally choose the files for review in the credentials session, they do so at
         the direction of the surveyors, ensuring different privileges (active, courtesy, consulting, and
         temporary, for example) and specialties are represented. But time is too short for any in-depth
         review of these files. For example, in one hospital with over 500 active staff, the surveyor
         reviewed three practitioners’ credentials and privileges. Even though he found a problem with
         one of the three (a podiatrist who was performing surgery for which he is not privileged), the
         surveyor reviewed no additional files.

         The credentials session falls short in other ways, as well. While the surveyors do ask important
         questions about the hospitals’ process for matching privileges to competencies and verifying
         licences, we observed no surveyor ask how the hospital identified or dealt with physicians
         whose knowledge or practice skills were marginal. Even though Federal law requires hospitals
         to report any practitioner they have disciplined to the National Practitioner Data Bank, it is
         unlikely that surveyors will make any determination about hospitals’ compliance with the law:
         Joint Commission standards do not currently reference the law for reporting to the Data Bank,
         and the likelihood is low that surveyors will choose a file of a disciplined physician randomly.”

24. The most comprehensive study to date is the Harvard medical practice study that involved the
review of about 30,000 randomly selected records of patients hospitalized in New York State during
1984. The study found that 1 percent of the hospitalizations involved adverse events caused by
negligence. The study team estimated that during 1984 negligent care provided in New York State
hospitals was responsible for 27,179 injuries, including 6,895 deaths and 877 instances of “permanent
and total disability.” See Troyen A. Brennan et al., “Incidence of Adverse Events and Negligence in

Managed Care and the Data Bank                    34                                     OEI-01-99-00690
                                                                                 APPENDIX C

Hospitalized Patients,” The New England Journal of Medicine 324 (February 7, 1991) 6: 370-376.


A subsequent study focusing on the care received by 1,047 hospitalized patients from 1989 through

1992 in a large teaching hospital affiliated with a medical school offered an even more disturbing finding. 

It found that 17.7 percent of the patients received inappropriate care resulting in a serious adverse

event--ranging from temporary disability to death. See Lori B. Andrews et al., “An Alternative

Strategy for Studying Adverse Events in Medical Care,” The Lancet 349 (February 1, 1997) 309-

313.


Finally, a study of a sample of admissions in Utah and Colorado in the early 1990s found that 3.7

percent of the patients experienced an adverse event--an injury caused by medical mismanagement. 

See Helen R. Burstin et al., “Incidence and Types of Adverse Events and Negligent Care in Utah and

Colorado,” Medical Care: (Spring 2000) 261-271.


25. Accounts about dangerous physicians who have caused considerable harm to patients and have
revealed the shortcomings of quality oversight functions regularly appear in television news magazines
and in the popular press. Among the press accounts in recent years are the following: Sandra
Bondman, “What Can You Find Out About Your Doctor?,” Washington Post, (June 8, 1999)
[www.washingtonpost.com/wp-sr...ate/1999-06/08/0591-060899-idx.html,last accessed June 1999];
Jennifer Steinhauer, “Brain Surgeon Cited in Bungled ‘95 Case Faces a New Inquiry,” New York
Times (January 18, 2000); Jennifer Steinhauer, “Surgeon Treated Wrong Side of Two Brains, Albany
Says,” New York Times (March 1, 2000). Jennifer Steinhauer, “Inquiry Creates Doubt Around State
Staten Island Doctor and Hospital,” New York Times (March 19, 2000); Jennifer Steinhauer and
Edward Wong, “How System Let Doctor Under Inquiry Keep Working After Bizarre Act,” New York
Times, January 27, 2000; Susan Rubinowitz and Christine Landon, “Probed Doctors Aren’t Feeling
Too Much Pain,” New York Post (March 5, 2000); Mark McIntire and Jack Dolan, “White Coats
Dark Secrets A Special Report: They Have Killed or Injured Thousands of Patients,” Hartford
Courant, (April 30, 2000) [www.ctnow.com/s...type=article&render=&ck=&ver=hb1.3, last
accessed May 2000]; Mike McIntire, “White Coats Dark Secrets A Special Report: Patients Bleed,
Practice Thrives,” Hartford Courant, (April
30,2000)[www.ctnow.com/s...type=article&render=&ck=&ver=hb1.3, last accessed May 2000];
Jennifer Steinhauer, “Doctor’s License Suspended Over Faulty Mammograms,” New York Times
(June 1, 2000); Jennifer Steinhauer, “Suspended Radiologists Have Troubled Professional Histories,”
New York Times (June 3, 2000); Michael Cooper, “Ex-Doctor is Charged in 3 Patient Deaths,” New
York Times (July 12,2000); and Atul Gawande, “When Good Doctors Go Bad,” New Yorker
Magazine, (August 7, 2000).

26. Some physician practice groups, especially IPAs in California, have begun to implement utilization
reviews, physician credentialing, physician profiling, and other quality assurance (QA) initiatives. While
physician practice groups do engage in such efforts, there is some question as to the effectiveness of
these QA initiatives. For further discussion on the limits of QA in physician practice groups, see Eve A.
Kerr et al., “Quality Assurance in Capitated Physician Groups: Where is the Emphasis?,” Journal of
the American Medical Association 276 (October 16, 1996) 15: 1236-1239; S.R. Weingarten et al.,

Managed Care and the Data Bank                  35                                    OEI-01-99-00690
                                                                               APPENDIX C

“Evaluation of a Pneumonia Practice Guideline in an Interventional Trial,” American Journal of

Respiratory Critical Care Medicine 153 (1996): 1110-1115; L. M. Lewis, L.C. Lasaster, B.E.

Ruoff, “Failure of a Chest Pain Policy to Modify Physician Evaluation and Management,” Annals of

Emergency Medicine 25 (1995): 9-14; and J.M. Grimshaw and I.T. Russell, “Effect of Clinical

Guidelines on Medical Practice: A Systematic Review of Rigorous Evaluations,” Lancet 342 (1993):

1317-1322. 


27. Recently, at a national meeting of State medical boards, we held a focus group discussion with
representatives of numerous State boards. The discussion focused on the boards’ handling of quality-
of-care cases.

28. See Office of Inspector General, Medical Licensure and Discipline: An Overview, June 1986;
State Medical Boards and Medical Discipline, OEI-01-89-00560, August 1990; State Medical
Boards and Medical Discipline: A State-by-State Review, OEI-01-89-00560, August 1990;
Quality Assurance Activities of Medical Licensure Authorities in the United States and Canada,
OEI-01-89-00561, February 1992; Performance Indicators, Annual Reports, and State Medical
Discipline: A State-by-State Review, OEI-89-00563, July 1991; and State Medical Boards and
Quality-of-Care Cases: Promising Approaches, OEI-01-92-00050, June 1997.

For further analysis drawing in large measure on the above reports, see also M.R. Yessian, “State
Medical Boards and Quality Assurance,” Federation Bulletin: The Journal of Medical Licensure
and Discipline 79 (1992) 5: 126-135; M.R. Yessian, “How Can State Medical Boards Compete in
the Quality Assurance Marketplace?,” Federation Bulletin (1994) 2: 102-108; and M.R. Yessian,
“From Self-Regulation to Public Protection: Medical Licensure Authorities in an Age of Rising
Consumerism, Federation Bulletin 81 (1994) 3: 190-194.

29. See for examples: Timothy S. Jost, “Oversight of the Competence of Healthcare Professionals,” in
Regulation of the Healthcare Professions, Timothy S. Jost, ed. (Chicago, Il.: Health Administration
Press, 1997); L.J. Finnochio, C.M. Dower, N.T. Blick, C.M. Gragnola, and the Task Force on Health
Care Workforce Regulation, Strengthening Consumer Protection: Priorities for Health Care
Workforce Regulation (San Francisco, CA.: Pew Health Professions Commission, 1998); and Carl F.
Ameringer, State Medical Boards and the Politics of Public Protection (Baltimore, Md.: The Johns
Hopkins University Press, 1999).

30. Institute of Medicine, To Err is Human: Building a Safer Health System (Washington, DC:
National Academy Press, 2000).

31. Ibid., p. 169.

32. Ibid.

33. HRSA supported follow-up inquiries to our prior work on hospital reporting. More recently, it
funded another promising effort exploring ways to improve the dialogue between health care providers
and State licensure boards. Its grant to the Citizen Advocacy Center seeks to foster collaboration

Managed Care and the Data Bank                 36                                   OEI-01-99-00690
                                                                                   APPENDIX C

between licensure boards and hospitals in developing remedial, educationally-oriented approaches for
helping practitioners who have knowledge and/or practice deficiencies while at the same time ensuring
that the patients remain adequately protected.

34. HCFA’s Monitoring Review Guide contains language that calls for MCOs contracting with
Medicare to monitor physicians who are in their network. HCFA’s Quality Improvement System for
Managed Care also has provisions that call for Medicare MCOs to “implement a documented process
for selection and retention of affiliated providers for physicians, including members of physician groups.”
[www.medicare.gov/quality/3AHTM, accessed December 3, 2000]

35. These boards, of course, are State entities under the jurisdiction of the laws and governance of
their individual States. But, because Medicare and Medicaid statutes require that physicians who are
reimbursed under these programs be licensed by the States, the boards also provide an important
service to Federal programs. Under Medicare law, doctors of medicine and osteopathy, dentists,
podiatrists, chiropractors, and optometrists are the six categories of health care professionals defined as
“physicians.”

36. To Err is Human, p. 135.

37. In prior years, the Division of Medicine has provided some funding support to associations
representing State licensing boards to help them improve the performance of the boards. Particularly
notable was its support to the Federation of State Medical Boards for developing a self-assessment
instrument. The effort resulted in a wide array of measures that boards (and others) could use to assess
their performance and to review how they compared with their own performance over time and with
similar boards. Unfortunately, we have learned through our inquiries that the use of this instrument, or
some version of it, does not appear to have taken hold across the States.

38. It is important to note that the Federation of State Medical Boards established a special committee
to address how State boards can do a better job of addressing quality-of-care cases. The committee
produced a report with numerous well-considered recommendations of steps that boards (and State
governments) can take in this regard. See Federation of State Medical Boards, Special Committee on
Evaluation of Quality of Care and Maintenance of Competence, 1998.




Managed Care and the Data Bank                   37                                     OEI-01-99-00690
